OFFICE OF AUDIT
REGION 4
ATLANTA, GA




         HUD’s Office of Community Planning and
             Development, Washington, DC

               Grant Risk Assessment Procedures




2013-AT-0002                                  AUGUST 26, 2013
                                                        Issue Date: August 26, 2013

                                                        Audit Report Number: 2013-AT-0002




TO:            Frances Bush, Deputy Assistant Secretary for Operations, DO

               Yolanda Chavez, Deputy Assistant Secretary for Grant Programs, DG

               Ann Oliva, Deputy Assistant Secretary for Special Needs, DN



FROM:          Nikita N. Irons, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:       HUD’s Office of Community Planning and Development Had Established and
               Implemented a Risk Assessment Process Adequate for Evaluating Grants
               Administered or Carried Out by Subrecipients


    Attached are the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of HUD’s Office of Community Planning
and Development’s grant risk assessment procedures.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
404-331-3369.
                                            Date of Issuance: August 26, 2013
                                            HUD’s Office of Community Planning and Development
                                            Had Established and Implemented a Risk Assessment
                                            Process Adequate for Evaluating Grants Administered or
                                            Carried Out by Subrecipients


Highlights
Audit Report 2013-AT-0002


 What We Audited and Why                     What We Found

We reviewed the U.S. Department of          CPD had established and implemented an adequate
Housing and Urban Development’s             risk assessment process for developing monitoring
(HUD) Office of Community Planning          strategies for grants administered or carried out by
and Development’s (CPD) risk                subrecipients. From 2008 to 2012, HUD OIG issued
assessment procedures as they relate to     44 CPD reports with subrecipient deficiencies showing
subrecipient involvement in CPD             $104 million in questioned costs or funds that could
programs. We initiated the audit due to     have been put to better use. During this period, CPD
observations by HUD Office of               had continuously reevaluated its overall risk
Inspector General (OIG) auditors of         assessment process. It had increased efforts to identify
frequent subrecipient-related findings in   subrecipient-related issues by revising the risk factors
CPD external audits. Our objective was      specific to subrecipient involvement in its grants. The
to determine whether CPD’s risk             actions that CPD took, as well as additional planned
assessments were adequate for               actions, should result in improved identification and
evaluating grants administered or           monitoring of the grants most susceptible to waste,
carried out by subrecipients.               fraud, abuse, and mismanagement.

 What We Recommend

Our audit identified no reportable
deficiencies; therefore, there are no
recommendations.
                          TABLE OF CONTENTS

Background and Objective                                                        3

Results of Audit
      CPD Had Established and Implemented an Adequate Risk Assessment Process
      for Grants With Subrecipient Involvement                                  4

Scope and Methodology                                                           7

Internal Controls                                                               8

Appendixes
A.    2008-2012 HUD OIG Reports With Subrecipient Issues                         9
B.    Auditee Comments                                                          13




                                          2
                      BACKGROUND AND OBJECTIVE

The U.S. Department of Housing and Urban Development’s (HUD) Office of Community
Planning and Development (CPD) periodically issues a notice providing a methodology for
conducting risk analyses for formula and competitive grantees and establishes monitoring
priorities within available resources. For fiscal years 2012 and 2013, CPD issued Notice 12-12
(Implementing Risk Analyses for Monitoring Community Planning and Development Grant
Programs in FY 2012 and 2013). This risk analysis process was incorporated into CPD’s Grants
Management Process system, a computer-based information system that is used to provide a
documented record of conclusions and results. The notices are intended to augment the
departmental policy contained in HUD Handbook 1840.1, REV-3, Departmental Management
Control Program Handbook, which requires the development of risk-based rating systems for all
programs and is incorporated into Handbook 6509.2, REV-6, Community Planning and
Development Monitoring Handbook.

The major steps for implementing risk-based monitoring include

   •   Developing risk-based rating systems for program grantees,
   •   Rating and selecting grantees for monitoring,
   •   Identifying program risks and setting monitoring objectives, and
   •   Documenting the process and recording the rationale for choosing grantees.

Each CPD field office is responsible for developing monitoring strategies and an office work
plan encompassing grantees and programs to be monitored during the fiscal year. Headquarters
establishes the completion dates for risk analyses and work plans each fiscal year. The purpose
of a monitoring strategy is to define the scope and focus of the monitoring efforts, including
establishing a framework for determining the appropriate level of monitoring for CPD grantees
consistent within available resources. The work plan documents the field office decisions
regarding where to apply staff and travel resources for monitoring, training, and technical
assistance.

The risk analysis process is intended to provide the information needed for CPD to effectively
target its resources to grantees that pose the greatest risk to the integrity of CPD programs,
including identification of the grantees to be monitored onsite and remotely, the program areas to
be covered, and the depth of the review. The selection process should result in identifying those
grantees and activities that represent the greatest vulnerability to fraud, waste, and
mismanagement.

We initiated the audit due to observations by HUD Office of Inspector General (OIG) auditors of
frequent subrecipient-related findings in CPD external audits.

Our objective was to determine whether CPD’s risk assessments were adequate for evaluating
grants administered or carried out by subrecipients.


                                                3
                                 RESULTS OF AUDIT


CPD Had Established and Implemented an Adequate Risk Assessment
Process for Grants With Subrecipient Involvement
CPD had established and implemented an adequate risk assessment process for developing
monitoring strategies for grants administered or carried out by subrecipients. From 2008 to
2012, HUD OIG issued 44 CPD reports with subrecipient deficiencies showing $104 million in
questioned costs or funds that could have been put to better use. During this period, CPD had
continuously reevaluated its overall risk assessment process. It had increased efforts to identify
subrecipient-related issues by revising the risk factors specific to subrecipient involvement in its
grants. The actions that CPD took, as well as additional planned actions, should result in
improved identification and monitoring of the grants most susceptible to waste, fraud, abuse, and
mismanagement.


 Previously Issued Reports With
 Subrecipient Deficiencies Were
 Reviewed

               In an effort to better understand the types of risks presented by subrecipient
               involvement in CPD’s grant programs, we reviewed previously issued HUD OIG
               audit reports with findings due to either subrecipient actions or inadequate
               subrecipient monitoring by grantees. We reviewed 44 audit reports issued from
               2008 through 2012 and summarized the most frequently occurring findings. The
               reports included $104 million in questioned costs or funds that could have been
               put to better use. A list of the 44 reports is included in appendix A of this report.

               The most commonly occurring HUD OIG findings related to subrecipient actions
               were

                   •   Grantee or subrecipient failed to maintain adequate support documentation
                       (39);
                   •   Grantee did not adequately monitor subrecipient or adequately document
                       monitoring (38);
                   •   Subrecipient used program funds for ineligible costs or participants (22);
                   •   Subrecipient lacked controls to properly identify eligible program
                       participants (9);
                   •   Program income was incorrectly identified, reported, or classified (6);
                   •   Grantee awarded funds to ineligible subrecipients, failed to enter into a
                       subrecipient agreement, or had inadequate subrecipient agreement (5);
                   •   Grantee did not provide adequate training or guidance to subrecipient (4);
                   •   Grantee could not support that program met a national objective (3); and

                                                 4
              •   Grantee or subrecipients failed to follow procurement requirements (2).

CPD Had Established an
Adequate Risk Assessment
Process

           CPD had long been aware of the increased risk inherent in grants with
           subrecipient involvement. During our review period, HUD OIG audit reports and
           the results of CPD’s own monitoring reviews caused both CPD’s headquarters
           and field staff to have increased concern with the additional risk posed when
           subrecipients administered or carried out grant programs. As a result, CPD
           continually reevaluated its process and increased scores for applicable risk
           assessment factors. It more heavily weighted subrecipient involvement, thereby
           increasing the likelihood that the process would identify such grantees for
           monitoring.

           We reviewed risk assessment guidance CPD published for use in years 2008 to
           2013 and identified specific risk factors for subrecipient involvement in CPD’s
           programs. CPD typically issued revised risk assessment guidance notices every 2
           years. When a new risk notice was due, CPD staff reviewed existing guidance
           and made changes designed to improve the process. The changes documented in
           CPD’s risk assessment guidance from notice to notice supported a pattern of
           continual reevaluation of the risk factors and supported HUD’s increased focus on
           the risks presented by subrecipients. We found the latest individual risk factors to
           be adequate for evaluating the additional risk posed by subrecipient involvement
           in the grant programs.

           In addition to assessing the risk assessment guidance and individual risk factors,
           we reviewed actual risk assessments that CPD performed on a sample of nine
           grantees that we selected from nine separate field offices for compliance with
           applicable guidance. While we found minor instances in which staff had
           incorrectly assigned scores for specific risk factors, none of the instances would
           have affected the scores by a large enough margin to change the overall grantee
           risk rating.

           In addition to continuing its practice of reevaluating guidance and risk factors
           applicable to subrecipients, CPD planned to change its grant reporting system
           from a legacy-based platform to a new Web-based platform for fiscal year 2015.
           One goal of the new system was to further streamline and improve the risk
           assessment process. CPD planned to issue a new risk notice applicable for use
           with the new system and withdraw old program notices at that time.




                                            5
Conclusion

             CPD had established and implemented an adequate risk assessment process for
             developing monitoring strategies for grants administered or carried out by
             subrecipients. It had continuously reevaluated the risk assessment process and
             increased its efforts to identify subrecipient-related issues by revising the risk
             factors specific to subrecipient involvement when necessary.

             While there are no formal recommendations included in this report, we encourage
             CPD to continue its focus on the risks of subrecipient involvement as it develops
             and designs its new grant reporting system and the accompanying risk notices
             applicable to the new system.

Recommendations

             Our audit identified no reportable deficiencies; therefore, there are no
             recommendations.




                                                6
                        SCOPE AND METHODOLOGY


We performed our fieldwork between February 2013 and April 2013 at HUD headquarters and
our offices in Knoxville, TN. Our audit generally covered the period January 2008 through
December 2012. To accomplish our audit objective, we

   •   Contacted CPD staff to obtain an understanding of the controls related to the audit
       objective and the controls significant to the audit objective.

   •   Reviewed applicable criteria: HUD Handbooks 1840.1, REV-3, and 6509.2, REV-6, and
       HUD CPD’s policy and procedures for performing grant risk assessments, specifically
       CPD Notice CPD-07-07 and later notices.

   •   Reviewed applicable risk assessment guidance from HUD for our audit period to identify
       risk factors in existence, evaluate whether they were adequate, and determine changes in
       HUD’s scoring or approach to subrecipient involvement in CPD grants between notices.

   •   Identified and reviewed 44 previously issued HUD OIG audit reports (2008-2012) with
       findings due to subrecipient actions or the grantees’ inadequate monitoring of
       subrecipients. We summarized the information from these reports to identify common
       findings for inclusion in our report.

   •   Selected 9 CPD grantees (each from a different region) from our 44 previously issued
       HUD OIG reports. For each grantee, we reviewed HUD’s risk assessment for
       compliance with applicable risk assessment guidance.

   •   Reviewed the following reports related to CPD risk assessment procedures:

           o HUD OIG report 2010-BO-0002: HUD’s Office of Community Planning and
             Development Had Established and Implemented an Appropriate Risk Assessment
             Process,
           o HUD Office of Policy Development and Research: Risk Based Monitoring of
             CPD Formula Grants, and
           o The Cloudburst Group: CPD Monitoring NCR Project # NP8620101015.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               7
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Policies and procedures that management has implemented to ensure that the
                      risk attributable to subrecipient participation in CPD programs is adequately
                      evaluated by CPD’s risk assessment process.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of CPD’s internal control.




                                                 8
                                         APPENDIXES

Appendix A

    2008-2012 HUD OIG REPORTS WITH SUBRECIPIENT ISSUES
Item     Audit report   Report date                      Report title                       Grant program
          number
1      2011-AT-1019     9/28/2011     The Alabama Department of Economic and              HPRP* - ARRA**
                                      Community Affairs, Montgomery, AL, Used
                                      Homelessness Prevention and Rapid Re-Housing
                                      Program Funds for Ineligible and Unsupported
                                      Purposes

2      2010-AT-1004     5/17/2010     Mobile Housing Board, Mobile, AL, Used HOME         HOME***
                                      Investment Partnerships Program Funds for
                                      Ineligible and Unsupported Costs for Its HOPE VI
                                      Redevelopment

3      2010-LA-1010     5/7/2010      Arizona Department of Housing’s Administration      HPRP - ARRA
                                      of Its Recovery Act Grant: Homelessness
                                      Prevention and Rapid Re-Housing Program

4      2011-LA-1016     8/18/2011     The City of Compton Did Not Administer Its          HOME
                                      HOME Program in Compliance With HOME
                                      Requirements

5      2011-LA-1010     5/17/2011     People Assisting the Homeless, Los Angeles, CA,     HPRP - ARRA
                                      Did Not Always Ensure That Homelessness
                                      Prevention and Rapid Re-Housing Funds Were
                                      Used To Assist Eligible and Supported
                                      Participants

6      2011-LA-1009     4/6/2011      Special Services for Groups, Los Angeles, CA,       HPRP - ARRA
                                      Approved Homelessness Prevention and Rapid
                                      Re-Housing Program Assistance for Unsupported
                                      and Ineligible Participants

7      2010-LA-1003     12/4/2009     City of Los Angeles’ Community Development          CDBG****
                                      Department, Los Angeles, California, Projects Did
                                      Not Comply with Community Development Block
                                      Grant Program Requirements

8      2010-LA-1001     10/28/2009    City of Los Angeles Housing Department, Los         HOME
                                      Angeles, California, Did Not Ensure That the
                                      NoHo Commons Housing Development Met
                                      HOME Program Requirements

9      2009-LA-1011     7/1/2009      City of Los Angeles Housing Department, Los         HOME
                                      Angeles, California, Did Not Ensure That the
                                      Buckingham Place Project Met HOME Program
                                      Requirements
10     2009-DE-1005     9/17/2009     Adams County, Colorado, Did Not Have Adequate       CDBG

                                                     9
Item    Audit report   Report date                       Report title                      Grant program
         number
                                     Controls over Its Block Grant Funds

11     2009-DE-1001    2/11/2009     The Adams County, Colorado, Did Not Comply          HOME
                                     with HOME Investment Partnerships Program
                                     Regulations

12     2008-DE-1003    9/23/2008     The State of Colorado Did Not Comply with           CDBG
                                     Community Development Block Grant Program
                                     Requirements

13     2008-AT-1003    12/26/2007    The City of Jacksonville, FL Lacked Proper          CDBG
                                     Support for Some Subrecipient Purchases and
                                     Expenditures

14     2008-CH-1004    4/7/2008      City of Muncie, Indiana Lacked Adequate             HOME
                                     Controls over Its HOME Investment Partnerships
                                     Program

15     2010-AO-1002    1/4/2010      State of Louisiana, Baton Rouge, LA, Did Not        CDBG - Disaster
                                     Always Ensure Compliance Under Its Recovery         Recovery
                                     Workforce Training Program

16     2009-AO-1003    9/23/2009     Louisiana Land Trust, as the State of Louisiana’s   CDBG - Disaster
                                     Subrecipient, Did Not Always Ensure That            Recovery
                                     Properties Were Properly Maintained

17     2010-BO-1002    11/23/2009    The City of Holyoke, Massachusetts, Office of       CDBG
                                     Community Development, Needs to Improve Its
                                     Administration of HOME- and CDBG-Funded
                                     Housing Programs

18     2011-CH-1001    10/13/2010    The City of Flint, MI, Lacked Adequate Controls     HOME
                                     Over Its HOME Program Regarding Community
                                     Housing Development Organizations’ Home-
                                     Buyer Projects, Subrecipients’ Activities, and
                                     Reporting Accomplishments in HUD’s System

19     2012-PH-1006    3/14/2012     Gloucester Township, NJ, Did Not Always             CDBG - ARRA
                                     Administer Its Community Development Block
                                     Grant Recovery Act Funds According to
                                     Applicable Requirements

20     2012-NY-1005    1/27/2012     The City of Newark, NJ, Had Weaknesses in the       HPRP - ARRA
                                     Administration of Its Homelessness Prevention
                                     and Rapid Re-Housing Program

21     2011-NY-1015    9/20/2011     Weaknesses Existed in Essex County, NJ’s            HPRP - ARRA
                                     Administration of Its Homelessness Prevention
                                     and Rapid Re-Housing Program


22     2011-NY-1002    11/12/2010    The City of Bayonne, NJ, Did Not Adequately         CDBG
                                     Administer Its Economic Development Program

                                                    10
Item    Audit report   Report date                      Report title                      Grant program
         number

23     2009-NY-1005    12/16/2008    The Township of South Orange Village, New          CDBG
                                     Jersey, Did Not Always Disburse Community
                                     Development Block Grant Funds As Per HUD
                                     Requirements

24     2009-NY-1004    12/8/2008     The Economic Development Corporation Did Not       CDBG
                                     Administer Its Community Development Block
                                     Grant Program in Accordance with HUD
                                     Requirements

25     2008-NY-1007    5/29/2008     The County of Essex, Verona, NJ, Did Not           CDBG
                                     Always Administer Its Community Development
                                     Block Grant Program in Accordance with HUD
                                     Requirements

26     2009-NY-1006    1/26/2009     The City of Rome, New York, Did Not Always         CDBG
                                     Administer Its Community Development Block
                                     Grant Program in Accordance with HUD
                                     Requirements

27     2011-NY-1010    4/15/2011     The City of Buffalo Did Not Always Administer      CDBG
                                     Its Community Development Block Grant
                                     Program in Accordance With HUD Requirements

28     2011-NY-1016    9/22/2011     The City of Buffalo, NY, Did Not Always            HPRP - ARRA
                                     Disburse Homelessness Prevention and Rapid Re-
                                     Housing Program Funds in Accordance With
                                     Regulations

29     2012-NY-1002    10/18/2011    The City of New York, NY, Charged Questionable     HPRP - ARRA
                                     Expenditures to Its Homelessness Prevention and
                                     Rapid Re-Housing Program

30     2008-FW-1012    8/4/2008      The City of Tulsa, Oklahoma Allowed Its Largest    CDBG
                                     Subrecipient to Expend $1.5 Million in
                                     Unsupported CDBG Funding

31     2011-PH-1006    1/31/2011     The City of Pittsburgh, PA, Can Improve Its        CDBG - ARRA
                                     Administration of Its Community Development
                                     Block Grant Recovery Act Funds

32     2011-PH-1002    11/8/2010     The City of Scranton, PA, Did Not Administer Its   CDBG
                                     Community Development Block Grant Program in
                                     Accordance With HUD Requirements

33     2010-PH-1001    10/2/2009     The City of Altoona, Pennsylvania, Made            CDBG
                                     Unsupported Community Development Block
                                     Grant Payments

34     2011-FW-1013    6/30/2011     The City of Beaumont, TX, Should Strengthen Its    HPRP - ARRA
                                     Controls Over Its Homelessness Prevention and
                                     Rapid Re-Housing Program

                                                   11
Item     Audit report   Report date                      Report title                       Grant program
          number

35     2011-FW-1009     6/2/2011      The City of Houston, TX, Did Not Ensure That Its   HPRP - ARRA
                                      Homelessness Prevention and Rapid Re-Housing
                                      Program Complied With Recovery Act
                                      Requirements

36     2009-PH-1007     3/20/2009     The City of Norfolk, Virginia, Did Not Ensure      HOME
                                      That Program Income Was Returned to Its HOME
                                      Program as Required

37     2010-SE-1001     8/31/2010     Washington State Did Not Disburse Its              HPRP - ARRA
                                      Homelessness Prevention and Rapid Re-Housing
                                      Funds in Accordance With Program Requirements

38     2011-AT-1004     1/21/2011     Mecklenburg County, NC, Mismanaged Its Shelter     Shelter Plus Care
                                      Plus Care Program

39     2011-LA-1001     10/25/2010    The City of Los Angeles Housing Department,        HPRP - ARRA
                                      Los Angeles, CA, Did Not Always Effectively
                                      Administer Its Homelessness Prevention and
                                      Rapid Re-Housing Program

40     2009-AT-1005     4/1/2009      The City of Augusta, Georgia, Did Not Comply       HOME
                                      with HOME Monitoring Requirements

41     2010-AO-1005     8/4/2010      The State of Louisiana’s, Baton Rouge, LA,         CDBG - Disaster
                                      Subrecipient Did Not Always Meet Agreement         Recovery
                                      Requirements When Administering Projects Under
                                      the Orleans Parish Long Term Community
                                      Recovery Program

42     2010-AO-1001     6/22/2010     Mississippi Development Authority, Jackson,        CDBG - Disaster
                                      Mississippi, Did Not Always Ensure Compliance      Recovery
                                      under its Public Housing Program

43     2008-AT-1011     08/07/2008    The City of Durham, North Carolina Did Not         HOME
                                      Comply with HOME Investment Partnerships
                                      Requirements


44     2008-NY-1004     3/31/2008     Lower Manhattan Development Corporation, New       CDBG - Disaster
                                      York, New York, Community Development Block        Recovery
                                      Grant Disaster Recovery Assistance Funds

* Homelessness Prevention and Rapid Re-Housing Program
** American Recovery and Reinvestment Act of 2009
*** HOME Investment Partnerships Program
**** Community Development Block Grant




                                                    12
Appendix B

                             AUDITEE COMMENTS

The Director of the Office of Field Management informed us by telephone that HUD agreed with
the draft report and had no written comments to include in the final report.




                                            13
